<html>
<title> - CAMBODIA'S LOOMING POLITICAL AND SOCIAL CRISIS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     CAMBODIA'S LOOMING POLITICAL 
                           AND SOCIAL CRISIS

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2013

                               __________

                           Serial No. 113-37

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
81-869                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5d4a557a594f494e525f564a1459555714">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. John Sifton, director, Asia Advocacy, Human Rights Watch.....     6
Ms. Evi Schueller, legal consultant, Cambodian League for the 
  Promotion of Defense of Human Rights...........................    15
Mr. Patrick Merloe, director, Election Programs, National 
  Democratic Institute...........................................    26
Mr. Daniel Mitchell, chief executive officer and managing 
  director, SRP International Group..............................    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. John Sifton: Prepared statement..............................     9
Ms. Evi Schueller: Prepared statement............................    17
Mr. Patrick Merloe: Prepared statement...........................    28
Mr. Daniel Mitchell: Prepared statement..........................    40

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and chairman, Subcommittee on Asia and the 
  Pacific: Material submitted for the record.....................    64


             CAMBODIA'S LOOMING POLITICAL AND SOCIAL CRISIS

                              ----------                              


                         TUESDAY, JULY 9, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon, the committee will come to 
order. I understand the ranking member will be here in just a 
moment, but rather than keep everyone waiting I will go ahead 
and give my opening statement. We welcome our colleagues, as 
well as our distinguished witnesses, to the Subcommittee on 
Asia and the Pacific hearing this afternoon.
    There is no doubt that today the Cambodian people are 
better off than they were in the late '70s under the Khmer 
Rouge when as many as 2 million Cambodians were murdered. But 
while the region has significantly changed since the days of 
the Cold War, Cambodia has taken very few steps to open its 
political system and move toward a more transparent and 
responsive regime. The past 30 years have shown that Cambodia's 
dictator, Prime Minister Hun Sen, has not and will not tolerate 
real political debate. The upcoming national elections have 
only underscored the deterioration of the human rights 
landscape in Cambodia over the course of the past few years.
    On October 23, 1991, 19 countries joined together to sign 
the Paris Peace Agreements which offered a political settlement 
aimed at ending the tragic conflict and continuing bloodshed in 
Cambodia. It also laid out the process for building a just and 
democratic Cambodia anchored in human rights and the rule of 
law. The United Nations maintained a mission in the country 
until 1993 to supervise the ceasefire, prepare Cambodia for its 
new constitution, and help ensure that its first general 
elections were free and fair.
    It was this agreement that planted the seeds for an 
environment in which the respect for human rights could be 
protected and could grow. Twenty years have passed since 
Cambodia held its first national elections, but the vision for 
the Cambodian people that the international community put in 
writing is not yet a reality. Cambodia remains consumed by a 
corrupt political system that is becoming more authoritarian 
with each passing day. Hun Sen and the ruling Cambodian 
People's Party do not foster democratic discourse or respect 
the fundamental freedoms that will allow the Cambodian people 
to live more prosperous and fulfilling lives.
    Despite the large amount of foreign aid the U.S. and 
international community has provided to the Cambodian 
Government and its people for the purposes of promoting human 
rights, civil and political liberties, improving educational 
standards, combating health risks and increasing food security, 
Hun Sen is taking every action to make it nearly impossible for 
this aid to be effectively used in a political and social 
structure that is mired in corruption.
    On July 28, Cambodia will hold its fifth election behind a 
false veil of democracy during which Hun Sen will win his 
fourth term as prime minister through the incitement of 
political violence, corruption and nepotism. This victory will 
only ensure a political, social, and economic future for the 
Cambodian people that is both uncertain and dire. The list of 
intimidating and repressive actions taken by the CPP is long. 
Last month they expelled 27 elected opposition legislators from 
the National Assembly and attempted to prohibit radio stations 
from broadcasting all Khmer-language foreign news. It also 
refuses to allow opposition leader Sam Rainsy from running in 
the upcoming election, has made death threats to human rights 
activists and organizations, and inhibits other opposition 
party members from running effective campaigns. In addition to 
severely restricting freedom of speech and association, Hun Sen 
has warned the Cambodian people that if they do not reelect 
him, civil war will return.
    I commend the international community for its decision to 
not send election monitors to Cambodia and legitimize Hun Sen's 
illegitimate victory, but declaring the election not free or 
fair is not enough. U.S. policy toward Cambodia needs to change 
and the Obama administration needs to take a much tougher 
approach to Asia's longest ruling dictator. I intend to 
introduce legislation which complements a bill Senators Graham 
and Rubio introduced last month, urging the State Department 
and USAID to not support the national elections if the U.N. 
recommendations made in July 2012 by the U.N. Special 
Rapporteur on the situation of human rights in Cambodia are 
ignored, and political opposition parties and leaders are 
excluded from the election.
    So far neither has happened. The legislation also calls for 
the U.S. to withhold foreign assistance to the Cambodian 
Government if the elections are not judged credible and 
competitive. Cutting off direct aid to the Cambodian 
Government, specifically foreign military financing and 
international military education and training funding, is a 
tangible action the U.S. can take to show its condemnation of 
the upcoming fallacious and undemocratic election. I also urge 
Secretary Kerry to issue a condemnation of the elections. A 
Department press release is not enough and will only highlight 
the Administration's indifference toward Hun Sen's actions and 
the human rights of the Cambodian people.
    Today, the real question is how much leverage does the U.S. 
still have in Cambodia and with Hun Sen, and how can the U.S. 
leverage its assistance to better address the growing human 
rights abuses in Cambodia at a time of incredible political 
instability? We have seen Cambodia's political and economic 
ties with China significantly grow, which has impacted the 
effectiveness of U.S. assistance to advance the rule of law, 
democracy and human rights. Chinese loans, infrastructure 
development, investment, and aid has grown alongside Cambodia's 
resistance to address these abuses, which calls into serious 
question the Administration's decision to increase military 
financing to Cambodia and our overall aid strategy.
    I look forward to hearing from our witnesses this afternoon 
regarding all the issues that I mentioned. I now yield to my 
good friend from the American Samoa, the ranking member, Mr. 
Faleomavaega, for his opening remarks.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I also would 
like to offer my personal welcome to our distinguished 
witnesses here this afternoon.
    Mr. Chairman, lately our country seems to be on a mission 
to stir up discord here, there and everywhere in parts of the 
world where we could use our allies and partners. It is my hope 
that in the case of Cambodia we will proceed more cautiously. 
When I served as chairman in this subcommittee I held two 
hearings about Cambodia because I believe the United States 
needs to make right what we have done wrong in Southeast Asia. 
History shows that the United States failed Cambodia miserably, 
yet the title of today's hearing presupposes that Cambodia is 
to blame for not being democratic enough for our liking. In 
their testimony, however, I am hopeful that our panel of 
esteemed human rights witnesses will advocate more for and on 
behalf of Cambodia in calling upon the United States, for 
example, to forgive Cambodia's debt.
    During the Lon Nol period from 1970 to 1975, Cambodia 
incurred a debt of about $276 million through the provision of 
the agricultural commodities from the U.S. Department of 
Agriculture. As of December 2011, with accrued interest applied 
to successor governments in Cambodia, the amount of debt now is 
over $460 million with about $437 million in arrears. Yet, 
Marshal Lon Nol seized power in 1970 in a military coup against 
Prince Sihanouk with the encouragement--with the 
encouragement--of the United States in order to create a buffer 
state for the United States forces then engaged in the war in 
Vietnam.
    Lon Nol's government, the Khmer Rouge Republic, was 
chaotic, dictatorial and corrupt and dependent upon large 
quantities of U.S. financial assistance, including the loans 
which created the current debt. Marshal Lon Nol's regime was 
overthrown on April 1, 1975 when he fled into exile, and the 
United States abandoned, Mr. Chairman, abandoned Cambodia and 
its people. The Khmer Rouge Republic was followed by the coming 
to power of the Khmer Rouge led by Pol Pot, also known as 
Brother Number One. The Khmer Rouge was one of the most brutal 
regimes of the 20th century, responsible for the deaths of an 
estimated 1.7 million people out of a population of only about 
7.5 million. Its heartless motto was, and I quote, ``To keep 
you is no benefit, to destroy you is no loss.''
    As chairman of the Asia and the Pacific Subcommittee I 
visited Cambodia twice. No one came away from that experience 
without wanting to lend a helping hand. To this day I cannot 
erase from my mind the images of Tuol Sleng or the killing 
fields where babies were torn out of wombs or beaten against 
trees until their skulls cracked open, where men, women and 
children, families like yours and mine were tortured, 
suffocated, skinned alive and buried alive. I am sickened by 
the reminders of genocide, of shoes and shirts soaked in blood 
that are still scattered in the killing fields of Cambodia.
    According to his Excellency Cham Prasidh, Cambodia's 
Minister of Commerce, whom I have had the privilege of meeting, 
who lost both parents to the Khmer Rouge, only 69 intellectuals 
survived the genocide. From ashes, Cambodia has been forced to 
rebuild and has looked to anyone for help. In my discussion 
with Minister Prasidh, I was particularly struck by his words 
when he said to me, Eni, when you are drowning you do not care 
about the color of the hand that is saving you.
    Sadly, history suggests that the U.S. played a role or a 
part in Pol Pot's rise and these days now China, not the United 
States, is one of the largest sources of foreign assistance to 
Cambodia, lending a hand of some $800 million in aid and loans 
in 2006 to 2007. The United States provided a little over $100 
million in the same period. While China continues to assist, 
even announcing that it will spend $9.6 billion building a 
brand new seaport in Koh Kong Province and a 400 kilometer 
railroad connecting it to a steel mill in Preah Vihear 
Province, and here we are pointing fingers at Cambodia.
    When will we realize that Cambodia is important to U.S. 
security interests? When will we approach the U.S.-Cambodia 
relations a little more responsibly? If we are serious about 
human rights in a country that we failed--we failed--Mr. 
Chairman, so miserably, we should consider these remarks from a 
member of the American Chamber of Commerce who recently said, 
and I quote, ``One way of addressing the human rights issues is 
to promote the investment of responsible capital.''
    I agree this is the way forward. I commend Chevron, Dairy 
Queen, ConocoPhillips, Prudential, Caterpillar, and other 
United States firms for the role they are playing to better 
Cambodia's economic lifestyle. I also commend the Bush 
administration for lifting a 10-year ban on direct bilateral 
aid to Cambodia in February 2007. And I thank U.S. State 
Department Special Representative for telling reporters in 
Phnom Penh this year, in January, the pivot to Asia is not only 
security focused, it is an economic focus. Because in order for 
us to be successful in the long term we have to be economically 
involved in this region.
    I would suggest, Mr. Chairman, that we get economically 
involved by forgiving and recycling Cambodia's debt. The United 
States has a history of forgiving debts by countries in which 
there was past U.S. military involvement including some $4.1 
billion--billion--of Iraq's debt in 2004, $24 million 
forgiveness of Bosnia-Herzegovina's debt in 1999, $538 million 
of former Yugoslavia's debt in 2002. The United States also has 
a long history in Asia of using incurred debt to fund U.S. 
assistance programs. We forgave Jordan some $500 million of 
their debt. So it is my sincere hope, Mr. Chairman, that our 
human rights activists will speak more for recycling or 
forgiving Cambodia's debt, as I believe this course of action 
will lead to the outcome for a better results in the economic 
needs of the people of Cambodia.
    I welcome our witnesses, especially Mr. Dan Mitchell who 
traveled all the way from Cambodia as a member of the American 
Chamber of Commerce so that he could share with us his 
perspective about how important it is at having an economic 
relationship with Cambodia. It seems to me that we talk about 
human rights, these people have got to be fed. Human rights 
violations according to the Chinese outlook about human rights, 
I remember President Zemin when we visited him in Beijing and 
said, oh, it is very fine you talk about human rights. You know 
what human rights is to us? If I don't put food on the table of 
that family I have violated their human rights. That just in 
terms of somewhat of a different interpretation what human 
rights means to some people in other parts of the world.
    I am sorry, Mr. Chairman, I have taken too much of your 
precious time, but I do thank you for the extra minute that you 
have given me. Thank you, and I look forward to hearing from 
our witnesses.
    Mr. Chabot. Thank you very much, Mr. Faleomavaega. We will 
now recognize the gentleman from North Carolina, Mr. Holding, 
for the purpose of making an opening statement.
    Mr.Holding. Thank you Mr. Chairman, I have a brief 
statement. With the national ``elections'' in Cambodia slated 
for the end of the month, this hearing is timely to examine our 
involvement in the country in terms of both foreign and 
military assistance, and to examine the multitude of human 
rights concerns that have been widely reported on. And as you 
pointed out, Mr. Chairman, much of Cambodia's budget is funded 
by foreign assistance from a few nations, obviously including 
the United States, and what have we seen in return for all of 
this international investment? We see a government that has 
been tightening their control over the country, a rule of law 
that is now nonexistent, a human rights record that has been 
widely and justifiably criticized, and elections put on merely 
to placate the international community.
    So I hope that the witnesses can outline today how we can 
more effectively leverage the dollars we provide and if we 
should be increasing our military assistance to Cambodia like 
the State Department has requested in Fiscal Year 2014, or if 
we should be conditioning our aid until we see progress in 
terms of freer elections, movement to address human rights 
concerns, and an increased emphasis placed on improving the 
rule of law. So I thank you, Mr. Chairman, and I yield back.
    Mr. Chabot. Thank you very much. The gentleman's time is 
expired.
    I would now like to introduce our very distinguished panel 
here this afternoon. I will begin with John Sifton who is the 
Asia Advocacy director at Human Rights Watch where he works 
primarily on South and Southeast Asia. He previously served as 
the director of One World Research, a public interest research 
and investigation firm. Prior to that he spent 6 years as a 
researcher in the Asia Division at Human Rights Watch. Mr. 
Sifton has also worked for the International Rescue Committee 
on Afghanistan and Pakistan issues, and at a refugee advocacy 
organization in Albania and Kosovo. He holds a law degree from 
New York University and a bachelor's degree from St. John's 
College in Annapolis. We welcome you this afternoon.
    Our next witness will be Evi Schueller who has been a legal 
consultant for the Cambodian League for the Promotion and 
Defense of Human Rights in Phnom Penh, Cambodia, for over 2 
years. Her primary focus is on rule of law issues and on the 
related harmful impact of improper land concessions on land 
rights. Before working for LICADHO she was counsel to the 
Assistant Attorney General Civil Division for the United States 
Department of Justice and a litigation associate with Morrison 
& Foerster LLP in San Francisco. We welcome you here this 
afternoon, Ms. Schueller.
    Our next witness will be Patrick Merloe who is a senior 
associate and director of Electoral Programs at the National 
Democratic Institute for International Affairs and has over 30 
years of experience in promoting citizen empowerment, 
governmental accountability, and public policy advocacy. He 
oversees the Institute's programs concerning nonpartisan 
citizen election monitoring and advocacy for electoral 
integrity, political party electoral integrity activities, 
constitutional law reform efforts and international election 
observation. Mr. Merloe has worked in more than 65 countries 
for NDI, focusing on conflict-sensitive states and countries 
that are vulnerable to authoritarian tendencies. He is a 
frequent public speaker and has worked with the United Nations 
and other governmental organizations dealing with human rights 
and rule of law issues. Mr. Merloe has a J.D. from the 
University of Pennsylvania, and completed his undergraduate 
education at Temple University. We welcome you here, Mr. 
Merloe.
    Our final witness here this afternoon is Daniel Mitchell. 
He is the CEO and managing director of SRP International Group, 
an investment and advisory firm focused on developing 
opportunities in Asian emerging markets. Prior to joining SRP 
International, Mr. Mitchell was head of Strategic Planning and 
Mergers & Acquisitions for Ford Motor Company's Automotive 
Components Division, and a manager in charge of Strategic 
Planning for Mitsubishi Motors. He sits on the American 
Cambodian Business Council's Board of Governors and is the 
founding member of the AMCHAM Corporate Social Responsibility 
Committee. Mr. Mitchell holds an MBA from Miami University of 
Ohio, which is very close to my district, but is actually in 
Speaker Boehner's district. My staff director, brother, and my 
son graduated from that institution. I almost went there 
myself. I had a full football scholarship offered but went 
somewhere else. Still a great university.
    Again, I want to thank the panel for being here this 
afternoon. We will begin with Mr. Sifton. The same rules will 
apply to all; we have a 5-minute rule. There is a lighting 
system. The yellow light will give you a warning that there is 
1 minute to wrap up. When the red light comes on, we would 
appreciate it if you wrap up your testimony. Mr. Sifton, you 
will be our first witness this afternoon.

 STATEMENT OF MR. JOHN SIFTON, DIRECTOR, ASIA ADVOCACY, HUMAN 
                          RIGHTS WATCH

    Mr. Sifton. Thank you for inviting me to testify today. 
Many of us in the human rights community really appreciate your 
attention to Cambodia which is an all too often overlooked 
country, seen by many to lack geostrategic significance.
    Mr. Chairman, as you suggested yourself just now, Cambodia 
at this moment is standing on a precipice of sorts. Over 20 
years after the Paris Peace Agreements, over 30 years since the 
mass crimes against humanity and genocide that occurred, the 
country's civil and political situation remains highly 
problematic. Human rights, democracy, the rule of law--things 
that were promised in the 1991 Paris Agreements remain 
troublingly elusive. The problem here isn't inertia or habit, 
it is the result of a set of particular political facts, a 
particular person, in fact, and a particular party--Cambodia's 
ruler Hun Sen and his party, the Cambodian People's Party.
    Hun Sen and the CPP control almost every aspect of 
governance and civil life in Cambodia including the military 
and police forces. All of Cambodia's top military and police 
commanders sit on the CPP's central committee. Hun Sen, in 
power since 1985, has consolidated his CPP based rule so that 
he controls almost every lever of power in Cambodia, and no 
decision of any significance is made without his or his party's 
consent. One of the results of this situation is that 
Cambodia's supposed democratic governance is not, in fact, 
democratic.
    Now given that Cambodia is set to hold elections less than 
20 days from now, I thought it would be useful to provide a 
quick review of the last four elections to explain the context 
and the reality of this upcoming one, and that is what I have 
done in the written version of my testimony which is submitted 
for the record. I would note here that in the first election 
after the Paris Agreements in 1993, Hun Sen and his party 
actually lost and yet, unwilling to accept the results of the 
elections, he threatened to go to war with the opponents to 
ensure his continued leadership.
    I also note the major violence in the run-up to the 
country's second elections in 1998, including a March 30th, 
1997 grenade attack on opposition leader Sam Rainsy across the 
street from the National Assembly, an attack in which the FBI 
concluded that Hun Sen's bodyguard unit was actually 
implicated. And I note that in July 1997, Hun Sen carried out a 
coup against his co-prime minister and installed a pliant 
politician in his place. Do you remember this Newsweek cover 
from 1997? Perhaps you don't. But this is the vision of Hun Sen 
that we had at that time, 15 years ago.
    His forces in the wake of that coup carried out a wave of 
violence and summary executions that led to congressional 
hearings like this one here in the United States, international 
condemnation and a disruption of aid to Cambodia. That was 15 
years ago. A lot of blood was spilled, people were killed and 
images of bodies floating down the Mekong River were carried by 
media services around the world. In 2003 and again in 2008, Hun 
Sen and the CPP again dominated the electoral process. Then as 
now, they controlled the appointments, the membership of the 
national election committee as well as the courts. That was how 
it was then and that is how it is today.
    At this time, the leader of the opposition, Sam Rainsy, is 
not even able to campaign. He has been living in exile, 
convicted in absentia in a politically motivated case, and he 
is not even on the ballot as a candidate. And notably, the 
small slate of standing opposition candidates were, as you 
said, kicked out of the Parliament last month for spurious and 
politically motivated reasons. Although Sam Rainsy recently 
announced that he plans to return to Cambodia in 10 days' time 
to campaign for his party's candidates, he is likely to be 
arrested and jailed upon return.
    The United States has already told Hun Sen and his 
colleagues that an election with a leader of the opposition 
banned from the contest and small the opposition dispersed, the 
legitimacy of such an election is in question. If Sam Rainsy is 
actually put in prison when he returns, the question is 
essentially answered. The election will not be a legitimate 
democratic exercise. What will occur on July 28th and what is 
occurring beforehand is an illegitimate theatrical enterprise 
aimed at appeasing the international community.
    So the main question for the United States now is not what 
the Administration can do or demand in the next 19 days, but 
what the United States will say and do after the election. What 
will the United States do to address this and will they again 
condone what amounts to fake democracy? That is the question 
before us now.
    I will end by essentially saying that Human Rights Watch 
believes that it is time for a stronger U.S. policy on 
Cambodia. There is a great deal that can be done to improve the 
situation there. The United States can use its empowerment of 
groups in Cambodia through USAID funding who serve as a check 
on Hun Sen's power. They can stand more visibly with dissidents 
and activists who seek to expose government abuses. And the 
United States can disassociate itself from Hun Sen. Cutting aid 
to military assistance, IMET, FMF, is a given at this point in 
our view. There are several other ideas that I would like to 
run through in the question period, but we are hopeful that 
Secretary Kerry, as you said, will speak himself after the 
election and condemn the exercise, and not just leave it to 
State Department spokespersons. Thank you.
    [The prepared statement of Mr. Sifton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Sifton.
    Ms. Schueller, you are recognized for 5 minutes.

  STATEMENT OF MS. EVI SCHUELLER, LEGAL CONSULTANT, CAMBODIAN 
      LEAGUE FOR THE PROMOTION OF DEFENSE OF HUMAN RIGHTS

    Ms. Schueller. Thank you.
    Mr. Chairperson and members of the subcommittee, thank you 
for inviting the Cambodian League for the Promotion and Defense 
of Human Rights, LICADHO, to participate in this important 
hearing. My testimony will summarize key points from LICADHO's 
written statement.
    The past couple of years have seen a deterioration of the 
human rights landscape in Cambodia. Much of this trend can be 
linked to the significant acceleration and the issuance of long 
term, large scale land leases through 2012. As of May 2013, 
over 2.2. million hectares have been granted to private firms 
in the form of such leases, the vast majority of which have 
been issued in disregard of safeguards expressly provided for 
in the Cambodian land laws. Since 2003, over 400,000 Cambodians 
have been affected by land disputes.
    Human rights defenders, particularly those working in land 
rights, have been targeted for harassment, threats, unjustified 
criminal charges and violence. State forces including the 
military continue to provide assistance and protection to 
private companies involved in land disputes with villagers, as 
well as taking part in forceful and occasionally lethally 
violent evictions. The following is a non-exhaustive list of 
recent violence perpetrated by members of the military.
    On December 12th, 2011, a commanding military officer 
acting as a security guard for a private company shot at a 
group of villagers injuring three. The villagers had been 
demonstrating against the clearing of farmland by the company. 
On January 18, 2012, military personnel acting as security 
guards for TTY Company opened fire on a group of civilians who 
had gathered to prevent clearing of their farmland by the 
company's excavators. Four villagers were injured by bullets. 
Four men were eventually convicted and sent and sentenced to a 
paltry 2 to 3 years with each sentence also significantly 
suspended.
    On April 26, 2012, well known environmental activist Chut 
Wutty was shot dead in a remote corner of the Cardamom 
Mountains while investigating illegal logging. Military police 
officer In Rattana was also killed by gunfire and two other 
members of the military were present. Government officials put 
forward an array of bizarre and contradictory explanations for 
the death before finally pinning the shooting on Rattana, based 
on an implausible scenario which was never substantiated with 
credible evidence. And on May 16, 2012, a large military 
operation saw hundreds of soldiers, military police and police, 
aided by a helicopter, storm a remote village in Kratie 
Province. Authorities claim the operation was organized to 
arrest three ringleaders in an alleged succession plot. 
Villagers, meanwhile, say that the attack was motivated by an 
ongoing land dispute with Casotim, a firm that claims villagers 
are infringing on its large land concession. The operation 
resulted in the shooting death of a 14-year-old girl, Heng 
Chantha. There has been no indication of any investigation into 
the shooting, nor have there been any arrests.
    Events over the past month have also significantly 
undermined Cambodia's upcoming national election and are 
threatening its legitimacy. LICADHO has investigated numerous 
attempts to intimidate or obstruct members and supporters of 
opposition parties at the commune and village levels. In the 
first 5 months of 2013, a total of 18 cases of politically 
motivated intimidation were documented.
    In June of this year, the National Assembly's Permanent 
Committee, which is comprised entirely of ruling Cambodian 
People's Party members, stripped all opposition party members 
of their parliamentary status as noted. This left the 
legislative body with an unconstitutionally small membership of 
just 94. Regardless, the body has continued to pass politically 
motivated legislation and to begin consideration and debate of 
the country's 2014 budget. The removed Parliamentarians have 
also been stripped of their parliamentary salaries and 
immunity.
    In late June, the government also issued two separate 
orders seeking to drastically censor the media. The more 
expensive of the two orders was revoked on June 29th, following 
loud public outrage. We are extremely grateful to the United 
States and its Ambassador to Cambodia, William E. Todd, for 
taking an immediate and firm public position against the ban, 
an act which no doubt played a large role in the ban's 
reversal. The earlier order, however, issued on June 21, also 
bans all media from broadcasting foreign reports regarding 
opinion polls, surveys and election results. This ban remains 
in place and will take effect on July 23, 5 days before 
election day.
    In light of these and other abuses as described in our 
written statement, we respectfully suggest that the United 
States review its military aid and cooperation with the 
Cambodian military to take into consideration the deteriorating 
conditions of human rights in Cambodia. Thank you.
    [The prepared statement of Ms. Schueller follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Merloe, you are recognized for 5 minutes.

 STATEMENT OF MR. PATRICK MERLOE, DIRECTOR, ELECTION PROGRAMS, 
                 NATIONAL DEMOCRATIC INSTITUTE

    Mr. Merloe. Thank you Mr. Chairman and members of the 
committee.
    Thank you for the opportunity to address the conditions in 
Cambodia leading up to the crucial July 28th elections. I will 
briefly summarize my written submission to the committee and 
ask that it be included in the record.
    Mr. Chabot. Without objection, so ordered. Please pull the 
microphone a little bit closer too, just to make sure everybody 
in the room can hear you.
    Mr. Merloe. Thank you. Since the beginning of Cambodia's 
1992 transition, NDI has been involved in a series of programs 
that covers a range of issues with activists, political 
parties, and institutions in Cambodia to help create democratic 
governance and respect for human dignity. Though there has been 
progress in some areas, Cambodia's government is mired in a 
corrupt, semi-authoritarian political system, while Hun Sen and 
the ruling CPP have stunted Cambodia's democratic development 
even though they receive large amounts of international aid.
    The international community in our view therefore needs to 
intensify support of Cambodians who are seeking and striving 
for democracy and human rights, while making it clear that a 
Cambodian government that lacks democratic legitimacy is a 
threat to nation's stability and cannot be treated as a 
reliable partner. Otherwise, the spirit as well as the 
provisions of the 1991 Paris Peace Agreements will ring hollow.
    Mr. Chairman, Cambodia's electoral process again is not 
measuring well against international standards. Cambodia's 
National Election Committee, the NEC, is not an independent and 
impartial body. Recommendations put forward last year by the 
U.N. Special Rapporteur on Cambodia, as you noted, are 
important for ensuring democratic elections but have largely 
remained unaddressed, which casts a shadow across the upcoming 
polls. While violence is less of a factor and concern than it 
has been in past Cambodian elections, the threat of violence is 
still a factor.
    That Prime Minister Hun Sen threatens civil war and the 
return to a Khmer Rouge-like era if citizens vote for members 
of the opposition is an illustration of this. He has repeatedly 
attacked CNRP vice president Kem Sokha, even accusing him of 
pedophilia and statutory rape, while among other things, Sokha 
faces charges of defamation for calling the CPP's campaign 
dirty, an ironic and illuminating fact. The CNRP president, Sam 
Rainsy, as you have noted, is forced into self-imposed exile in 
the face of a politically motivated prison sentence. 
Nonetheless, he has recently pledged to return to Cambodia.
    In June, as was noted by my colleague, an all-CPP 
parliamentary committee voted to remove all opposition members 
from the National Assembly. That is the antithesis of an 
inclusive political process and reflects on the electoral 
environment. All television stations are affiliated with the 
CPP, while the opposition's media outreach is limited to a 
small number of independent radio stations, and these too are 
under threat.
    Mr. Chairman, serious flaws in Cambodia's voter registry 
create real potentials for both illegal voting and 
disenfranchisement of a large number of qualified voters. In 
February, NDI and two Cambodian civil society organizations 
known as NICFEC, and the Centre for Advanced Studies, conducted 
an impartial, systematic audit of the voter registry. The voter 
registry audit found that the registration rate has decreased 
by 5 percent since 2008, which contrasts starkly with the NEC's 
claim that 101.7 percent of the eligible population is on the 
voter roll, a dubious statistic.
    While approximately 81 percent of the people on the roll 
are valid, about 18 percent of the names are invalid. That 
creates the potentials for ghost voting, that is, using the 
invalid names to cover for manipulated, illegal voting or for 
underage illegal voting and other impersonation. In contrast, 
NDI found that 10.8 percent of the eligible citizens who think 
that they are on the registry are not. That creates the 
potential for significant disenfranchisement. And in addition, 
the voter registration audit found that numerous polling 
stations in which more than half of the voters have been 
deleted from 2012; the over-deletion itself creates the 
possibility for significant disenfranchisement that could 
undermine electoral integrity. Rather than using this 
information from the voter registration audit and other 
independent sources, the government has reacted hostilely.
    Mr. Chairman, in the face of sustained resistance to reform 
by the ruling party, supporting Cambodians who are seeking 
democracy and human rights and a better material life is all 
the more important. The current political situation calls for 
the redoubling of such efforts going forward. Thank you Mr. 
Chairman.
    [The prepared statement of Mr. Merloe follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Mitchell, you will be our final witness here this 
afternoon. You are recognized for 5 minutes.

 STATEMENT OF MR. DANIEL MITCHELL, CHIEF EXECUTIVE OFFICER AND 
           MANAGING DIRECTOR, SRP INTERNATIONAL GROUP

    Mr. Mitchell. Mr. Chairman, distinguished committee 
members, thank you for the opportunity to testify at this 
hearing today.
    By way of background, I am a native of Illinois. I have 
served in the Army Reserve and National Guard to include the 
Ohio National Guard. I worked for several large manufacturing 
companies including Ford and Mitsubishi. I founded SRP 
International Group and have been involved in agriculture, 
forestry and manufacturing in Cambodia over the past 13 years. 
I am a member of the Board of Governors of the American Chamber 
of Commerce in Cambodia, AMCHAM, and the founding member of the 
Corporate Social Responsibility Committee.
    My objective here today is neither to attack or defend the 
current government of Cambodia. There are human rights and 
corruption issues. The country's dynamic NGO community and 
press regularly report and document these issues. The issues 
presented are serious and some of them are acknowledged by the 
government. My effort here today is to provide objective 
information and reasoned assessments based upon my experience 
on the ground. I believe it is essential that the policy 
initiatives by the United States to deal with each challenge be 
informed, look to the future and remain engaged.
    The AMCHAM has played its role through workshops over the 
past several years that began with USFCPA compliance and have 
expanded to include the U.N. Guiding Principles for Business 
and Human Rights. Positive government actions have included 
government land titling program that has issued over 3 million 
land titles to villagers. Additionally, management of ACLEDA 
Bank, holder of over 90 percent of bank loans in Cambodia, 
reports that one-third of their new loans are using these new 
land titles as collateral. This is progress. A lack of 
consistency, however, on the government's implementation of 
their other programs have frustrated both the informed business 
community and the population at large.
    But tangible progress has been made. In this context, I 
would argue that while Prime Minister Hun Sen may be a strong 
man he is not a dictator, neither is his party monolithic. 
Consequently, the prime minister must have consensus backing 
for his initiatives from a variety of constituencies. Since the 
late 1990s, Cambodia's progress has been significant and 
sustained. I was fortunate enough to be a founding partner in 
an enterprise that was the first large scale investment of 
institutional financial capital in Cambodia, in this case, 
European pension fund money. We were only able to reach this 
milestone within the requisitely international legal 
compliance, social and environmental responsibility criteria 
they mandated. We demonstrated that it is possible to meet 
these criteria in Cambodia.
    As an entrepreneur I became interested in Cambodia because 
of its tremendous untapped human potential, but this is also 
one of the country's greatest challenges. Cambodia faces major 
demographic issues with over 50 percent of its population under 
25 years old, and an estimated 300,000 new entrants to the 
workforce annually. Absorption of these new workers and 
increasing the overall population standard of living will 
require a real GDP growth of 7-8 percent. That growth requires 
significant capital investment. This must be socially and 
environmentally responsible investments and address the gaps 
and the skills of graduates of Cambodia's education system. The 
issue of youth skills and employability is of increasing 
significance and has greater long term social crisis potential 
than the current human rights issues capturing the headlines.
    Economic security is the most basic of human rights. 
American companies and those from other developed countries can 
lead by example in the area of fair labor practices, 
environmental sustainability, and corporate social 
responsibility. Our behavior sets the standards in marked 
contrast to experience with Chinese investors who have created 
serious issues for local population. But in our absence the 
Chinese stand ready with both investment and aid. We can be 
sure that human rights and corporate social responsibility are 
not discussion points in these negotiations. Rather than 
withdrawal of U.S. aid, I would advocate reallocation of 
portions to programs for the development of democracy.
    Cambodia-U.S. relations are at a crossroad. History has 
provided the leadership of both countries with the opportunity 
to work together to achieve common objectives that are of 
universal appeal. I will look forward to your questions in 
further discussions. This is a summary of a longer written 
statement. Thank you.
    [The prepared statement of Mr. Mitchell follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you.
    Thank you very much to all the witnesses. We will now ask 
questions and I will begin with myself for 5 minutes.
    The subcommittee hosted an event last month to screen the 
award-winning documentary, ``Even a Bird Needs A Nest,'' which 
depicts the scourge of forced evictions in Cambodia perpetrated 
at the hands of the government. I reviewed the tape last night 
myself. Unfortunately, the people were speaking Cambodian and 
it had French subtitles. I have not taken French since college. 
I got the gist of it, but a lot of it went beyond.
    Mr. Mitchell, in the past you said that U.S. investment 
will help the human rights situation and difficulties over land 
disputes in Cambodia because it is subject to higher standards, 
such as the Foreign Corrupt Practices Act. As you are aware, 
land grabs have become an enormous problem throughout the 
entire country and nearly 1 million people have been forced out 
of work or have no home to go to due to these forced evictions, 
which have not ceased despite Hun Sen's promises.
    One of my concerns regarding this issue is whether or not 
U.S. companies are involved in these land evictions. How is 
Cambodia implementing the standards established under the 
Foreign Corrupt Practices Act and how has your work helped set 
the standards in Cambodia? Also, you stated in your testimony 
that Chinese investments in Cambodia have made it increasingly 
difficult for U.S. companies to promote human rights, and at 
the same time, compete for business. How are you, through the 
businesses you represent, effectively helping the human rights 
situation in Cambodia and conducting responsible business 
despite the country's corruption and lack of rule of law. Also, 
what are you specifically doing to help stop these land grabs 
and help the Cambodian people?
    I would be happy if Ms. Schueller might want to comment on 
the land grabs, as well. So Mr. Mitchell and then Ms. 
Schueller.
    Mr. Mitchell. That is a very long list of questions.
    Mr. Chabot. It is. You have about 60 seconds to answer them 
all.
    Mr. Mitchell. Excellent. Forced land evictions at the end 
of the day are just a bad business practice. The economic land 
concessions involved are primarily agriculture, a few of them 
are involved in plantations. There is a need for labor in both 
in any economic land concession. As such, we advocate, we have 
worked with the Cambodian Government, the Ministry of Land 
Management, and the German development agency, GIZ, the 
development of what is referred to as the leopard's skin 
approach to concessions. It is effectively setting aside space 
for existing occupants, not relocating them, working around 
them and using them, or providing them labor and employment 
opportunities at a livable wage. This has proven very, very 
successful for Grandis Timber, which I was CEO of for 5 years, 
and is cited in one of the U.N. reports on the land grab issue 
as one of the best practices.
    With regard to USFCPA issues, we at AMCHAM advocate this. 
We hold basically annual seminars on this which has enjoyed the 
support of, I believe it was the Treasury Department, and 
additionally the Cambodian Government is sending senior level 
officials. In my discussions with officials they know what the 
USFCPA is and they know that I as a U.S. passport holder cannot 
violate that or I run the risk of the penalties.
    Chinese investment is a very real issue. Chinese investment 
is not governed by things like USFCPA. The investors at their 
institutional level are typically state-owned enterprises and 
they do not have the social responsibility or the environmental 
sustainability criteria that U.S. institutional and European 
institutional investors mandate. The more money coming in from 
those two areas in investment, the more competitive we are in 
implementing programs where we are not asking the government to 
hold us accountable, but rather our investors themselves are 
holding us accountable.
    Mr. Chabot. Thank you. Let me cut you off there because I 
want Ms. Schueller to jump in with the short time I have left.
    Ms. Schueller. I would add just that as Mr. Mitchell 
mentioned there are a small handful of investors that perhaps 
have obligations from outside investments to comply with 
certain rules. But the fact is that Cambodia's 2001 land law 
and its sub-decree on economic land concessions already 
actually provides fairly stringent safeguards which are 
routinely ignored. There are requirements for size limitations 
which are ignored, prior environmental and social impact 
reports, prior consultations and consent from affected 
communities, transparency, fair and adequate compensation--
those have all been routinely ignored.
    And these are, we are talking the vast majority are these 
large agricultural, industrial land concessions which also have 
not only past forced violation evictions but they have ongoing 
rights violations as you mentioned. There has been crackdowns 
on the demonstrations, arbitrary criminal prosecutions. There 
has been no offers of compensation or legal remedies to assist 
the hundreds of families that have continued to suffer as a 
result of losing their homes or farmland.
    And I would just want to quickly mention that in May of 
last year, the government asserted that it had addressed many 
of these issues through a directive suspending new land 
concessions and mandating a review of existing concessions, and 
also by the prime minister's June launch of an ad hoc land 
titling program using thousands of student volunteers. Both the 
directive and the privately funded titling scheme have been 
highly problematic. A loophole in the directive allowed for at 
least 16 new concessions to be granted afterwards totaling over 
80,000 hectares, and LICADHO is unaware of any systematic 
review of problematic concessions taking place.
    And while the push to expedite land titling is laudable in 
theory, the program completely bypassed established state land 
titling, institutions set up to perform these duties, so the 
program has been implemented in a secretive manner with no 
provisions for independent monitoring, with civil society 
organizations explicitly told to stay away, and numerous 
credible reports from landholders, especially in indigenous 
communities, being intimidated or tricked into accepting terms 
dictated by volunteer students. Such individual titles 
undermine these indigenous communities' communal land titling 
efforts.
    Mr. Chabot. Okay. Thank you very much. My time is expired. 
I will recognize the ranking member for 5 minutes. Thank you.
    Mr. Faleomavaega. Thank you Mr. Chairman. I thank the 
witnesses for their testimony. And I know quite obviously we 
have got some real good discussions here.
    Mr. Mitchell, how is it possible for the business community 
from the United States to survive if this is the kind of 
atmosphere that the people of Cambodia face here? What I mean 
is that we are not just using a pocket knife here, we are using 
a sledge hammer to really tell the Cambodian Government and the 
people that they don't know what they are doing. They are not 
leaders because they don't come up to the standards that we 
Americans expect them to be in forming a democracy. Sometimes I 
think we have to understand that democracy means different 
things to different people over different regions.
    If we call ourselves a great democracy, how come we allowed 
nine unelected officials to determine the results of a 
Presidential election we had some years ago? How do we justify 
to the Cambodians that that is a better form of campaign or 
democracy when the majority of the people did not determine who 
should be our next President? So I want to ask Mr. Mitchell, 
all the presidents of these American companies I know, but we 
haven't even discussed the garment industry problem fiasco with 
Bangladesh, with India, with Cambodia, with Laos, with Vietnam.
    What about the consistency, a sense of saying are we doing 
the same thing? Are we pressing other countries about the 
violations? We can talk about supply and demand. Eighty-five 
percent of small arms sold in Mexico comes from America, and 
the cartels and the drugs and all that goes into supply and 
demand. So what happens is a tremendous demand for clothing and 
garments to come out of Asia because of cheap labor.
    Cambodia is one of the prime countries that produces 
garment. Cheap labor, the wages that don't even come up to 
standards with us. How do you reconcile that the major 
difference, Mr. Mitchell, economically, to suggest oh, American 
companies are doing very well there. Then when I hear our 
friends, human rights activists say, oh, things are so terrible 
there. Hun Sen is a dictator, is a terrible person. And we seem 
to have forgotten what happened to the killing fields, what 
these people have had to endure to go through in trying to 
rebuild this country from ashes.
    I am sure that all of you have been to the killing fields, 
and I am telling you, Mr. Mitchell, it is not something that I 
want to share with every American here, what it meant to be to 
these people. And whether it was Hun Sen or Pol Pot or whatever 
it is, the fact of the matter is Cambodia's history is quite 
different. I would say 99 percent of the American people do not 
know that Cambodia was a colony of the French for some 100 
years, along with Laos and Vietnam, before we got involved. And 
I can tell you, Mr. Mitchell, from what I visited and what I 
saw, these people were treated like animals. And France is 
supposed to be the source of enlightenment about democracy and 
freedom? Give me a break. Mr. Mitchell, could you respond to my 
question?
    Mr. Mitchell. I will do my level best to respond without 
any disagreement to your assessment.
    Mr. Faleomavaega. And by the way, I have the utmost respect 
for my friends here in human rights. I am a human rights 
advocate. But you have got to put it in proper perspective. Let 
us talk about human rights in the Middle East. Let us talk 
about human rights in China. Let us not cherry pick. Let us be 
consistent. If we are going to do this, let us do it with the 
others too. I am sorry. I didn't mean to interrupt you. I have 
got 1 more minute left.
    Mr. Chabot. Were you finished with your response, Mr. 
Mitchell?
    Mr. Faleomavaega. I am sorry, Mr. Chairman.
    Mr. Mitchell. The United States does not use a consistent 
yardstick with regard to evaluation of human rights. We don't 
have the option of critiquing elections in China. We don't have 
the option of critiquing elections in Lao or in Vietnam, yet we 
do do business with those places. How do U.S. companies 
survive? Because we set our own standards and they are higher. 
And this isn't just the Americans, the Europeans. And that 
provides a mechanism for weak institutions that are 
characteristic of frontier markets that we, in fact, don't ask 
what is legal, it is what is right. What are our customers and 
our investors going to hold us accountable to?
    Mr. Faleomavaega. Mr. Mitchell, I have got 6 more seconds, 
just a note of interest. Hun Sen's son graduated from the 
military academy at West Point. That is where Eisenhower 
graduated. That is where Nimitz graduated. That is where 
MacArthur graduated. Does that make him a bad person? And I 
understand that his son is one of the most positive results of 
the kind of advice it is trying to give them to make the 
country better.
    I am sorry, Mr. Chairman, my time is gone. I wish we were 
at the third round already. Thank you.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from North Carolina, Mr. Holding, is recognized for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    Mr. Sifton, you mentioned in your preliminary testimony 
that cutting foreign and military assistance is a given, and 
you alluded that you had other suggestions as to how the U.S. 
could engage the Cambodian Government to seek reform. So I will 
give you a minute or so to elaborate on that please.
    Mr. Sifton. Thank you. I said it was a given because I 
think there is an increasing realization in the State 
Department and the Pentagon and the interagency dialogue that 
it is time for a new approach to U.S. foreign policy to 
Cambodia. These are four elections, 21 years since the Paris 
Peace Agreements, and we have had five U.S. Presidents since 
Hun Sen took power, seven U.S. Ambassadors. Whatever that 
attempt has been has not promoted democracy and rights in 
Cambodia. And so the thinking now is starting to tilt toward 
realization that Hun Sen responds, if he ever responds, more to 
tough talk than to diplomatic talk. Talk all the same, but 
tough talk in the sense that a warning is put on the table.
    The money is not so much the issue. IMET is small, FMF is 
small, but it is symbolically quite potent. The real hurt 
financially, I think, comes in infrastructure lending from 
international financial institutions like the World Bank, the 
Asian Development Bank, IMF and others. The World Bank has 
currently pulled out of Cambodia because of concerns about, 
well, many things, but it is currently not there. But the U.S. 
can use its voice and vote on the World Bank, IMF, Asian 
Development Bank, to vote against large infrastructure lending. 
We can pull aid, direct assistance to the Cambodian government.
    One thing that should not be on the table though is USAID 
health programming, PEPFAR funding for HIV/AIDS. Pulling that 
stuff will not hurt Hun Sen. It won't change anything. It will 
just harm ordinary Cambodians.
    Mr. Holding. If you pulled out the lending for 
infrastructure, I assume that companies like what Mr. Mitchell 
works with, I mean they would pull out as well. I mean that has 
got to be an attractor to Cambodia that they have access to 
infrastructure capital.
    Mr. Sifton. A quick word about the economics. I mean the 
problem, in my opinion, with the ranking chair and Mr. 
Mitchell's suggestion about the role of economic investment is 
one of cause and effect. I agree that corporate social 
responsibility and responsible investment is to the good in 
every country. But I think it is questionable at best to 
suggest that these methods will actually promote democracy and 
human rights. I mean even if we zoom out and speak in terms of 
the macroeconomic situation, having a person in power for 30 
years, which is what he will be after this election, is 
ultimately a destabilizing factor in the country's future and 
will lead to instability which will lead to serious economic 
downturns far more serious than whatever is lost through the 
loss of investment.
    Mr. Holding. One other concern would be--well, first off, 
China provides infrastructure loans to Cambodia as well the 
other institutions that you talked about. So if we were to 
block the International Monetary Fund from providing 
infrastructure loans do you think it would drive them closer to 
China? China would step in and provide whatever loans, 
infrastructure loans that they needed, and so long term we 
would lose any leverage that we might have in Cambodia?
    Mr. Sifton. Well, there is two responses I would add to 
that. One is that I have never quite understood why occupying 
the space would lead China not to occupy the space or attempt 
to, and China can make very good offers of its own and will, 
regardless of how much U.S. investment is put in, first.
    Secondly, after the experience in Burma, I don't think 
anybody in the U.S. Government really has a problem driving a 
country into the arms of the Chinese. I don't think the 
Cambodian Government really wants to be in the arms of the 
Chinese any more than any other government anywhere else in the 
world. So driving folks to the Chinese to beg, hat in hand, for 
infrastructure lending may be, in the long term interest, in 
the sense that ruling a lead of Cambodia, undemocratic as it 
is, may realize, like Burma did, that the future ultimately 
will be predicated on opening up to the rest of the world and 
not just depending on handouts from the Chinese Government.
    Mr. Holding. Thank you. Mr. Chairman, I yield back.
    Mr. Chabot. The gentleman yields back. The gentleman from 
California, Mr. Rohrabacher, who is also the subcommittee 
chairman on Europe, Eurasia, and Emerging Threats is recognized 
for 5 minutes.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and thanks for 
holding this hearing. It is significant that we should actually 
be looking at Cambodia after such a long time of ignoring 
Cambodia. It is interesting that our ignoring Cambodia after 
all of these years Hun Sen is still there. It is time for Hun 
Sen to go. Hun Sen is a corrupt, vicious human being who has 
held that country in his grip for decades. It is time for Hun 
Sen to go.
    We could talk all we want about theory. Let me ask the 
panel. Is Hun Sen a wealthy man now after these decades, or is 
he a committed public servant and thus has no outside wealth? 
Can anyone answer that question for me?
    Mr. Sifton. I think it would be difficult to estimate given 
the lack of transparency in Cambodia just how wealthy he and 
his family are.
    Mr. Rohrabacher. Has anyone done any guesstimates as to the 
wealth of Mr. Hun Sen? All right, let us just suggest that 
knowing the Cambodian system and knowing his ability to silence 
the opposition, let us say that it would really take a great 
deal of integrity for him not to succumb to people who want to 
give him money in order to do things. Let us go to our 
businessman over here. Can people do business in Cambodia 
without having to pay bribes and pay off the government?
    Mr. Mitchell. Absolutely yes. It requires patience. It 
takes longer. But absolutely yes, you can do business in 
Cambodia----
    Mr. Rohrabacher. So remember you are on the record now.
    Mr. Mitchell. Yes, I understand that.
    Mr. Rohrabacher. And there is a lot of people around the 
world who are going to say, here is this American businessman 
who is now saying that Hun Sen is not corrupt when it comes to 
business investments in his country. And if we----
    Mr. Mitchell. That is not what I am saying.
    Mr. Rohrabacher. Oh. What is it that you said? Excuse me.
    Mr. Mitchell. I am saying that it is possible to do 
business----
    Mr. Rohrabacher. Oh, I see.
    Mr. Mitchell [continuing]. In Cambodia----
    Mr. Rohrabacher. If Hun Sen's out of town for a week and 
somebody sneaks in you mean?
    Mr. Mitchell. No, that is not what I mean.
    Mr. Rohrabacher. Okay.
    Mr. Mitchell. I mean that it is possible to meet the 
standards of USFCPA and the international standards with regard 
to avoidance of corruption. It requires patience but it can be 
done.
    Mr. Rohrabacher. I think that when someone says something 
can be done, and you are trying to figure out what, really, 
someone is saying, is if there is a 1-percent chance that it 
can be done, it still can be done, which gives you the----
    Mr. Mitchell. I did it.
    Mr. Rohrabacher. Okay.
    Mr. Mitchell. I did it with European pension fund money 
behind me.
    Mr. Rohrabacher. All right.
    Mr. Mitchell. If at any given day they had thought for a 
moment that I was paying bribes, they would have shut down the 
project.
    Mr. Rohrabacher. All right. Now let me ask you this. You 
said it can be done, just to analyze your words here. It can be 
done. Does that mean that it is commonplace that people can do 
business without having to pay off the Hun Sen regime, or is 
it----
    Mr. Mitchell. American and Western European companies, yes. 
Companies from developed markets, yes.
    Mr. Rohrabacher. All right. I am happy you are on the 
record as saying that. It does stretch my knowledge because--
and you may know, you are on the scene. My information about 
Hun Sen indicates that that isn't the case, but I will have to 
admit you are on the scene and I am very happy you have made a 
solid statement on that.
    Do you know Brett Sciaroni by the way?
    Mr. Mitchell. Yes, I do.
    Mr. Rohrabacher. Okay, send him my best wishes.
    Mr. Mitchell. I will.
    Mr. Rohrabacher. And a man----
    Mr. Mitchell. I think, rest assured, Brett is probably 
watching.
    Mr. Rohrabacher. Okay. Let me ask you this. And let us 
remember, Hun Sen would not be in power, Mr. Chairman, if it 
wasn't for the cowardice of the United States. Let me just 
suggest Hun Sen lost the election that was held after the peace 
agreement in 1991. He lost the election. There was someone else 
elected prime minister. We had 10,000 United Nations troops on 
the ground at that time, and our Ambassador decided, well, a 
compromise would be we will let there be two prime ministers. 
No, the compromise was you should have followed what the 
election was all about and had the person who was elected 
become the prime minister.
    So whatever problems we face right now with Cambodia can be 
traced back to the cowardice of our government in making sure 
that we stood tall for democratic principles at a time when we 
could have enforced that adherence to the democratic process. 
So now Hun Sen is still there and it is time for Hun Sen to go. 
Thank you.
    Mr. Chabot. Will the gentleman yield to the ranking member?
    Mr. Rohrabacher. I would certainly be happy to, my good 
friend.
    Mr. Chabot. The gentleman is given an additional minute to 
yield to the gentleman.
    Mr. Faleomavaega. I just wanted to add a little bit to my 
dear friend from California. Marcos of the Philippines took $8 
billion of the Philippine treasury. Suharto of Indonesia took 
$8 billion from the Indonesian treasury. Ho Chi Minh took 
nothing. He died a simple man, and yet, boy, how we demonized 
this nationalist leader among the Vietnamese people. And he was 
the most evil person because he was a Communist. He was a 
socialist. All he wanted to do was get rid of French 
colonialism that existed among his people.
    Hun Sen, that is a good question. I am going to help my 
friend from California. My impression, Mr. Chairman, is that if 
he was so rich I don't think Cambodia would be in the situation 
it is now. And by the way U.S. laws do prohibit the kickbacks 
or briberies of officials when our businesses go overseas to do 
business. Am I correct in that, Mr. Mitchell?
    Mr. Mitchell. Absolutely.
    Mr. Faleomavaega. Okay. And I think there has been some 
question too about the wealthier Members of Congress. How do 
they get so wealthy since becoming members of this great 
institution? I yield back, Mr. Chairman.
    Mr. Chabot. Okay. We will begin a second round now. The 
Chair will recognize himself. First of all, I think as chair of 
the subcommittee it is probably my responsibility to comment 
that Ho Chi Minh was responsible for a tremendous number of 
deaths and was a pretty dastardly person in many respects. 
Despite the fact that Saigon is now named after him, at least 
officially, even though a lot of the people there still call it 
Saigon. I want to recognize the gentleman, the ranking member, 
who actually served in Vietnam, wore the uniform of this 
country and served there. We certainly respect him greatly for 
that.
    I would also note, relative to just a point of reference, 
the gentleman mentioned corruption, and I think it certainly is 
there. In fact, Cambodia is ranked 157th out of 176 countries 
when it comes to Transparency International's Corruption 
Perceptions Index for 2012. So it is ranked pretty darn low. 
But also, Mr. Mitchell, the gentleman who is here--I don't want 
to say defending business necessarily--but giving a business 
point of view, I would like to think that our American 
companies around the world, when faced with corrupt practices 
in that country, do follow a higher standard.
    I know Proctor & Gamble, for example, is headquartered in 
my district and I have had lots of conversations about their 
dealings all over the world. They have an absolute policy 
against that. If a country doesn't cooperate, they will leave 
in a heartbeat and there are a lot of jobs that leave with 
them. They have high standards. GE Aircraft Engines is also 
headquartered in my district and they have the same standards. 
I would like to commend our business community for their 
practices around the world. I wish other companies in other 
countries always followed that and they don't always do that. 
Some do. A lot don't. But I think most American companies do, 
and if they don't, they could be prosecuted for it, as we are 
aware.
    I have used about half of my time in the second round 
making these statements, but I thought they needed to be said.
    As we look at what is happening in Cambodia, the 
deteriorating human rights situation, the political oppression 
of opposition parties, and restrictions on freedom of 
expression to name just a few, what I would like to ask the 
panel is, how much leverage does the U.S. still have in 
Cambodia and with Hun Sen as well? How much of an impact do 
American administrations, say press releases or pieces of 
legislation that we pass here in Congress or hearings like we 
are holding here today, to the extent that they are covered in 
that part of the world, or potential action that we might have? 
Cutting foreign aid has been discussed. Those types of things, 
what actual power do we have to do some good in that part of 
the world, and specifically in Cambodia? I will go down the 
line if I can. Mr. Sifton?
    Mr. Sifton. Yes, that is a great question. And I want to 
emphasize----
    Mr. Chabot. Thank you. My staff wrote it.
    Mr. Sifton. I want to emphasize that a very important thing 
that the State Department and the White House can do is not 
just what they say and what they do after the election, but 
what they do with other capitals. What they do in Tokyo, 
Brussels, and Paris, in particular, as well as in Australia and 
some other countries, in terms of coordinating a coordinated 
response to what is going on. If Tokyo and Brussels and Paris 
and London and all the rest of them, together, make demands 
about what needs to happen going forward toward the next 
democratic exercise, if they make credible warnings to Hun Sen 
about the price of not meeting those standards, he will cave. 
He has shown himself again and again of a psychological profile 
where when pushed against the wall he will deal. He is not a 
particularly stable leader, but when pushed he does go back on 
rationality and doesn't act crazy to the end of the line.
    Mr. Chabot. Thank you, Mr. Sifton. Let me go to Mr. Merloe. 
I had already asked Mr. Mitchell and Ms. Schueller my first 
question earlier today, so I would like to turn to you as we 
wrap up.
    Mr. Merloe. Thank you, Mr. Chairman. I think it is really 
important to distinguish a few different ways the United States 
can have influence in this circumstance. First, there is the 
role of the U.S. Embassy and USAID on the ground in Cambodia, 
and we have already heard from our colleague about the role of 
the U.S. Ambassador in intervening, and the rolling back of the 
ban on covering Voice of America and Radio Free Asia and so on 
within the country. The help that has been given to human 
rights defenders has been instrumental and invaluable within 
Cambodia. There are many such things. The role of USAID in 
giving funding to programs that help promote democracy and 
human rights and human dignity within Cambodia are 
instrumental, and those sorts of things should be continued.
    Second, the role of Congress, the role of the State 
Department and the White House, as has just been said by my 
colleague: As you speak up the world listens, and that brings 
to bear the whole weight of the international community. And, I 
think we have to keep in mind that the new Cambodia was born 
out of the 1991 Paris Peace Agreements. In the annexes to that 
agreement, Number 4 applied to the Constitution, calls for 
democracy, pluralist political competition and the rule of law. 
It is not international standards or U.S. standards are foreign 
or that are being applied or somehow imposed on Cambodia. These 
are the things that the Cambodian people have been striving for 
and risking their lives for even during the days of Pol Pot and 
in the 30 years since. It is our role to support them, to come 
forward, and it is your leading role, and the role of this 
committee is instrumental in that respect. Thank you, Mr. 
Chairman.
    Mr. Chabot. Thank you very much. I want to thank all the 
panel members. I would like to recognize the ranking member for 
5 minutes.
    Mr. Faleomavaega. We are dealing with a dilemma here in 
terms of how do we go about enunciating our foreign policy, as 
it may have been suggested earlier that we become consistent. 
If we do it for Peter, we should do it for Paul. But when it 
comes to the realities as far as diplomacy is concerned, issues 
become gray and it becomes muddled because there are so many 
other factors to take into consideration.
    For example, let us talk about the rights of women. Let us 
talk about the rights of women on a worldwide scale, although 
we can't talk about it in Saudi Arabia because we import over 
$700 billion worth of oil from the Middle East and other 
countries. So which is more important, human rights of women or 
the oil that we need to run our cars? That is where the problem 
of being consistent comes in, not because diplomacy is bad but 
the reality. It is the reality.
    We never criticized the Russians for their elections. Oh, 
we did kind of dabble a little bit on it, but has Putin given 
in to the pressures from other democracies that say, hey, 
Russians, you are not doing a democracy here. What are you 
doing? Putin is a strong man. He is a dictator in the opinions 
of some of our pundits and experts here.
    I can talk to you about Indonesia. To a point, 2 million 
West Papuans at the point of a barrel of a gun of the 
Indonesian military under Suharto, you will vote for Indonesia. 
One thousand West Papuan chiefs all voted 100 percent in 
support of Indonesia's dictatorship. And guess who took a blind 
eye to this whole thing? Our own U.S. Ambassador to the United 
Nations. Why? Because we needed Indonesia because we were 
fighting the Cold War. We didn't care whether they were 
dictators or whatever, as long as they were with us.
    We can also talk about the CIA putting up the Shah of Iran. 
That is another mess that we created and it has nothing to do 
with democracy. So I say this, as I love my country, but 
sometimes we do things. Look what we have done in Iraq and look 
at Afghanistan. Look at all these areas. Have we really 
produced the results that we wanted? Oh no, don't worry about 
it. Well, Iraq has got all the oil in the world that will pay 
back the $1 trillion that we fought for some 10 years that we 
were there in Iraq. One trillion dollars, and guess what, ten 
major oil companies put up a bid for the use of the Iraq oil, 
guess which company won the bid. The Chinese, and they never 
lifted a finger to help us fight Saddam Hussein.
    Anyway, Mr. Chairman, I think my time is up. I am sorry. I 
apologize to my dear brother there, Dana, I know he wants to 
ask some questions. But I yield back, Mr. Chairman.
    Mr. Chabot. All right. The gentleman yields back. The 
gentleman from California is recognized to wrap up the hearing.
    Mr. Rohrabacher. All right, just a couple notes about Ho 
Chi Minh. Let us just note, oh, he died a simple man, did he? 
Ho Chi Minh died in a Presidential palace. He held power, 
absolute power, with a terror in North Vietnam and he sent 
millions of his people to their death. It resulted in 400,000 
Vietnamese were killed in his desire, what, to create a 
Communist state. And guess what? He was the head of it. He was 
the one who wasn't going to have to worry about elections 
because he was in power. No, he was a simple man, all right.
    And then of course what you really have to--by the way, the 
400,000 South Vietnamese that were killed, that is after his 
troops took over South Vietnam. That is not during the process. 
Not to mention I think a few people lost their lives in 
Cambodia due to Mr. Ho Chi Minh and his desires and his 
maneuvers for power in Southeast Asia. And yes, the United 
States tried to oppose him and it was a bridge too far and we 
walked away, and people who allied themselves with us were 
slaughtered. And nowhere was that more evident than in 
Cambodia.
    But now back to where Cambodia is today as compared to 
then--and by the way, all those people who died in Cambodia, 
wasn't there a field commander of Pol Pot named Hun Sen? Am I 
wrong about that? No. So when we are talking about atrocities 
into millions, there is nobody who comes close enough to Adolph 
Hitler and Joseph Stalin than Pol Pot, and Hun Sen was his 
field commander doing his dirty work. And he ended up on top, 
why? Because after he lost the election that was an honest 
election back in 1991-92, the American Ambassador decided, my 
goodness, Hun Sen will not give up even though he has lost the 
election and even though we had plenty of U.N. troops in there 
to see that that election was recognized.
    Back to where we are today in terms of, I am sorry. I know 
that Hun Sen has done right by your company and you are 
protecting the interests of your company, but a lot of people 
think it is very corrupt in Cambodia and that there might be a 
possibility that someone doesn't have to get sucked into it, 
but it appears by the analysis that actually most people think 
they are going to get sucked into it if they go there to 
invest. In that chart that we were just talking about, or the 
chairman just mentioned, in terms of transparency and 
accountability, yes, Cambodia comes in 157th out of 172 
countries, and countries like Yemen, Angola, Paraguay, Syria, 
they are all more honest than Cambodia in the analysis of this 
organization that makes its living by trying to do an honest 
analysis of what countries are human rights violators or not.
    Let us put this way. I think that it is a very important 
thing that we are drawing attention to Cambodia today. It is 
important that these arguments get out. I do not blame our 
business community for trying to get in and make a profit. And 
I do believe what our witness said, in his case and in the case 
of most American companies, because we have made it illegal for 
them to actually, breaking our law for them to try to bribe 
somebody overseas, these other countries don't have that. Now 
correct me, am I wrong? Is there a large amount of Chinese 
investment going into Cambodia? Am I wrong about that?
    Mr. Mitchell. You are correct. There is a tremendous amount 
of Chinese investment.
    Mr. Rohrabacher. Okay. So my guess is that the Chinese who 
are going in are not going in with the same regulatory burdens 
that our own companies have in terms of honesty and bribes and 
paying people off. And what we have seen and what we have just 
heard testimony, Mr. Chairman, is that the people of Cambodia, 
some people may have owned land for hundreds of years, are 
finding that their property is being taken from them and their 
property is being stolen from them and often given to foreign 
investors. And what could be more of an insult to your own 
people than to be making a profit by selling out your people to 
foreigners who are there of course taking advantage of the fact 
that you can't have, without freedom of the press, which is 
very limited there, that they are not going to be exposed.
    So I appreciate you, Mr. Chairman. I appreciate my good 
friend Eni. And let me just note, this is a man who fought for 
his country. I was in Vietnam in 1967 but I was not in the 
military. But let me just note that when you said something 
good about Ho Chi Minh, some people I worked with are dead 
because of Ho Chi Minh and they were not bad people. They were 
very good people.
    And yes, sure, I would yield, yes.
    Mr. Faleomavaega. Will the gentleman yield? Just for 30 
seconds, Mr. Chairman. I just want to say I wish we had more 
time so my good friend from California and I could debate Ho 
Chi Minh and what he stood for.
    Secondly, we talk about acquisition of lands. There is a 
saying among the American Indians, yes, you stole our land fair 
and square. I would like to talk about that in terms of what we 
have done as a country for the last 236-37 years. It always 
seems to be that if you don't remember the past you are 
condemned to repeat it. I sincerely hope they will be fair in 
the same way that the American Indians have lost their land. 
What have we done about it? Oh, they are getting spots of it 
here and there, but I wish it could have been more.
    Mr. Rohrabacher. We let them open up casinos and take our 
money, what do you mean?
    Mr. Faleomavaega. Because it is the only means of survival 
they have got----
    Mr. Rohrabacher. All right.
    Mr. Faleomavaega [continuing]. In terms of economic 
opportunity. All the states continue their lotteries and their 
bingos and casinos. Oh no, the poor Indians, that Congress has 
got to see them make sure there is no mafia presence or 
syndicates. No, they run the better gaming operations because 
it is under the auspices of the Federal Government. I am sorry. 
I didn't mean to----
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Faleomavaega. I thank my friend from California.
    Mr. Rohrabacher. But of course.
    Mr. Chabot. Thank you. The Chair would note that the U.S. 
Native American policies are not within the purview of this 
committee, but I am sure Congress does have committees that can 
deal with that issue. We do have India within our jurisdiction 
but not American Indians. I would also ask unanimous consent 
that committee members be given 5 days to revise their remarks 
or submit questions.
    I want to thank the panel for their testimony. I thought it 
was excellent testimony by all four. We also thank the members 
of the committee for their spirited involvement here this 
afternoon. If there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 3:27 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<Copyright><star>ab<pound>t <F-dash><func.-of><Register>\

  Material submitted for the record by the Honorable Steve Chabot, a 
   Representative in Congress from the State of Ohio, and chairman, 
                  Subcommittee on Asia and the Pacific

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
